TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        A More Strategic and Consistent
                    Approach to Estimating Retirements and
                     Other Separations Is Needed to Better
                    Plan for Future Human Resource Needs



                                         August 29, 2008

                              Reference Number: 2008-10-169




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      DEPARTMENT OF THE TREASURY
                                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     August 29, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – A More Strategic and Consistent Approach to
                                  Estimating Retirements and Other Separations Is Needed to Better Plan
                                  for Future Human Resource Needs (Audit # 200810026)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is effectively projecting its future human resource needs. This review is one of several
 audits assessing how the IRS is addressing the Human Capital1 management challenge.

 Impact on the Taxpayer
 The IRS is facing a major challenge with a large number of retirements expected over the next
 several years, which threatens workforce and leadership continuity. In addition, business units
 have noted that they have not always been able to replace all of the employees that they are
 losing through retirement and other forms of attrition. While the IRS has established some key
 parts of a workforce planning foundation, its Human Capital Office (HCO) and business
 units/functional offices have not made substantial progress in developing and implementing an
 agency-wide process that will consistently and accurately project future human resource needs.
 If accurate projections are not made, the IRS might struggle to fill unforeseen vacancies, which
 could affect overall service to taxpayers.




 1
     The term “human capital” is used to describe the skills, abilities, and contributions of the people in an agency.
                     A More Strategic and Consistent Approach to Estimating
                     Retirements and Other Separations Is Needed to Better
                             Plan for Future Human Resource Needs



Synopsis
The HCO was established in 2004 to provide human capital strategies and tools for recruiting,
hiring, developing, retaining, and transitioning a highly skilled and high-performing workforce to
support the IRS’ mission accomplishments. Since its formation, the HCO has gathered and
interpreted workforce data and made detailed projections of how many employees might leave
the IRS due to retirement or other reasons (collectively, these are referred to as separations).
However, while the IRS has established some key parts of a workforce planning foundation, the
HCO and the business units/functional offices have not developed and implemented an
agency-wide approach for consistently and accurately projecting future human resource needs.
This has limited the IRS’ ability to anticipate change, provide methods for addressing present
and anticipated workforce issues, and provide taxpayers with high-quality services on a daily
basis.
IRS business units and functional offices have been developing their own separation projections
because they determined that HCO estimates were based on old data and were of limited value.
These projections were usually made only for the following fiscal year and were primarily
motivated by the need to obtain budget approval to hire additional resources. Because a
significant number of employees with key skills and competencies in different locations,
occupations, and grade levels could leave the IRS, longer term separation projections must be
developed. These longer term projections could be used to develop strategies for replacing the
loss of institutional memory with the skills and competencies needed for the future.
However, developing reliable, longer term projections will be difficult because written
guidelines that delineate roles and responsibilities for projecting separations are out of date, and
there is no agency-wide process in place to improve upon current projections or to communicate
hiring changes that could affect future projections. In addition, measures necessary to assess the
accuracy of separation projections do not exist. As a result, the IRS’ ability to anticipate
workforce changes that potentially involve the loss of key competencies is limited.
After we informed IRS HCO officials about our initial results, the HCO provided a draft version
of a document entitled IRS Corporate Workforce Planning Framework Design, with segments
completed in November 2007 and February 2008. The Framework was created because the
HCO had identified a need to improve the IRS’ corporate workforce planning capabilities, which
include making separation projections. Within the Framework, the HCO lists many of the same
concerns identified during our audit.
While we agree with many of the findings and recommendations in the draft Framework, we
believe that the key to successfully implementing a corporate workforce planning framework
will be the ability of the HCO and the business units/functional offices to reach consensus on
implementing the concepts included in the proposed planning Framework.


                                                                                                   2
                    A More Strategic and Consistent Approach to Estimating
                    Retirements and Other Separations Is Needed to Better
                            Plan for Future Human Resource Needs



Recommendation
We recommended that as part of any planned improvements to the workforce planning process,
the Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement establish a more collaborative, integrative process to implement agency-wide
roles and responsibilities for effectively creating, refining, and using separation projections.
We recommended that in determining roles and responsibilities, the Deputy Commissioners
should revise written guidance and develop agency-wide templates for more consistent
separation projections, conduct analyses and develop measures to identify differences between
projected and actual separations, and develop a consistent method to communicate hiring
changes that could affect future projections.

Response
IRS officials agreed with our recommendation. The IRS Human Capital Officer plans to partner
with the Human Capital community and the Office of Program Evaluation Review and Analysis
to revise Internal Revenue Manual guidance, existing Support Agreements, and the roles and
responsibilities of the various partners (and their workforce planning processes and procedures
where necessary) to ensure more consistency regarding separation projections. The IRS Human
Capital Officer also plans to work with representatives of each IRS business unit to develop a
comprehensive, agency-wide workforce planning process (including appropriate measures) to
better enable the IRS to analyze its collective workforce needs and make accurate separation
projections (including migrations between the business units). Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being forwarded to IRS managers affected by the report
recommendation. Please contact me at (202) 622–6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622–8500.




                                                                                                   3
                           A More Strategic and Consistent Approach to Estimating
                           Retirements and Other Separations Is Needed to Better
                                   Plan for Future Human Resource Needs




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Improvements to Communication and Guidance Are Needed to
          Consistently and Accurately Estimate Employee Separations .....................Page 4
                    Recommendation 1:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
      A More Strategic and Consistent Approach to Estimating
      Retirements and Other Separations Is Needed to Better
              Plan for Future Human Resource Needs




                  Abbreviations

HCO         Human Capital Office
IRS         Internal Revenue Service
                           A More Strategic and Consistent Approach to Estimating
                           Retirements and Other Separations Is Needed to Better
                                   Plan for Future Human Resource Needs




                                                 Background

The Human Capital Office (HCO) was established in 2004 to provide human capital1 strategies
and tools for recruiting, hiring, developing, retaining, and transitioning a highly skilled and
high-performing workforce to support the IRS’ mission accomplishments. The HCO is
responsible for developing and implementing technology-enabled systems and processes to
improve human capital planning and management and to empower employees to achieve their
potential. Prior to 2004, these activities were handled in a more decentralized manner by several
organizations within the IRS business units/functional offices.
The IRS Human Capital Strategic Plan for Fiscal Years 2005-2009 sets forth a 5-year human capital
strategy for ensuring that the IRS builds and maintains the workforce needed to carry out its mission in
an efficient, effective, and productive manner. The Plan notes that the IRS is facing a major challenge
with a large number of retirements expected over the next several years, which threatens workforce and
leadership continuity. The Plan also mentions that another factor to consider when determining hiring
needs is employee losses due to migration between business units. In addition, business units have
noted that they have not always been able to replace all of the employees that they are losing through
retirement and other forms of attrition.
Due to the extent of upcoming retirements, migrations                               A March 2006 analysis prepared
between business units, and other forms of attrition                                  by a private vendor indicated
(collectively referred to as separations), the IRS contracted                           that 10 percent of the IRS
with an outside vendor that issued a comprehensive report in                           workforce will be eligible to
                                                                                    retire each year, starting in 2006
March 2006 that included analyses comparing the current                              and continuing through 2010.
workforce with a 5-year staffing forecast. Figure 1 shows
IRS staffing projections for Fiscal Years 2006 through 2010.




1
    The term “human capital” is used to describe the skills, abilities, and contributions of the people in an agency.
                                                                                                                  Page 1
                         A More Strategic and Consistent Approach to Estimating
                         Retirements and Other Separations Is Needed to Better
                                 Plan for Future Human Resource Needs



                       Figure 1: Agency-wide 5-Year Staffing Forecast2
                                                                                                      Percentage
                                  Estimated                                     Estimated              of Total
                                 Number of            Percentage of             Number of             Employees
    Fiscal      Total            Employees           Total Employees            Employees             Expected to
    Year      Employees       Eligible to Retire     Eligible to Retire      Expected to Retire         Retire
    2006        97,284              10,297                  10.6%                    4,932                5.1%
    2007        97,647              10,426                  10.7%                    5,740                5.9%
    2008        99,352              10,551                  10.6%                    6,645                6.7%
    2009        99,944              10,668                  10.7%                    7,494                7.5%
    2010        100,094             10,758                  10.7%                    8,315                8.3%
                                                 3
Source: IRS HCO Workforce Plan, March 2006.
As shown in Figure 1, the number of employees projected to retire is expected to steadily
increase through 2010. In addition, the IRS Human Capital Strategic Plan indicated that nearly
4,000 employees in mission critical occupations4 migrated from 1 business unit to another
between October 2001 and May 2004.
To assist the IRS and other Federal Government agencies in effectively planning for significant
human capital changes, the Office of Personnel Management published the Human Capital
Assessment and Accountability Framework in Calendar Year 2002.5 The Framework was
developed to educate agencies on human capital best practices. One of the critical success
factors identified in the Framework is the need for agencies to develop an explicit workforce
planning strategy that will identify current and future human capital needs, including the size of
the workforce, its deployment across the organization, and the competencies needed for the
agency to fulfill its mission.
This audit was conducted while changes were being made to the IRS’ workforce planning
process. Any changes that have occurred since we concluded our analyses in April 2008 are not
reflected in this report. As a result, this report might not reflect the most current status of the
IRS’ workforce planning efforts. The review is part of the Treasury Inspector General for Tax
Administration Fiscal Year 2008 Annual Audit Plan coverage under the major management

2
  For Fiscal Years 2006 – 2010, the numbers and percentages of employees both eligible and projected to retire were
based on an average of actual retirements during Fiscal Years 2001 – 2005.
3
  We did not verify the accuracy of the information provided by the HCO because its accuracy did not affect the
accomplishment of our audit objective.
4
  Mission critical occupations are those positions critical to front-line enforcement; they provide direct support to
front-line operations needed to meet IRS goals.
5
  The Office of Personnel Management established the Human Capital and Accountability Framework following
passage of the Chief Human Capital Officer Act of 2002, Pub. L. No. 107-296, tit. 13, 116 Stat. 2135, 2287 (2002).
                                                                                                             Page 2
                    A More Strategic and Consistent Approach to Estimating
                    Retirements and Other Separations Is Needed to Better
                            Plan for Future Human Resource Needs



challenge of Human Capital and is one of several audits planned to assess how the IRS is
addressing the Human Capital management challenge.
This review was performed during the period December 2007 through April 2008 at the
HCO Planning and Measures Division in Washington, D.C., and via teleconference with staff
from six business units and functional offices (the Small Business/Self-Employed Division,
Wage and Investment Division, Large and Mid-Size Business Division, Tax Exempt and
Government Entities Division, Criminal Investigation Division, and Modernization and
Information Technology Services organization). We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusions. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                           Page 3
                    A More Strategic and Consistent Approach to Estimating
                    Retirements and Other Separations Is Needed to Better
                            Plan for Future Human Resource Needs




                                 Results of Review

Improvements to Communication and Guidance Are Needed to
Consistently and Accurately Estimate Employee Separations
Since its establishment in 2004, the HCO has gathered and interpreted workforce data and made
detailed projections of how many employees might leave the IRS due to various types of
separations. While the IRS has established some key parts of a workforce planning foundation
and a new workforce planning framework is being considered, the HCO and the IRS business
units/functional offices have not developed and implemented an agency-wide approach. This
has limited the IRS’ ability to anticipate change, provide methods for addressing present and
anticipated workforce issues, and provide taxpayers with high-quality services on a daily basis.
Implementing an agency-wide approach would position the IRS to more consistently and
accurately project its future human resource needs and address present and anticipated workforce
issues.

The HCO has established key parts of a foundation for performing workforce
planning and analyses
The IRS, under the leadership of the HCO, has initiated several actions to improve its workforce
planning capability. For example:
•   The IRS developed a Human Capital Strategic Plan for Fiscal Years 2005-2009, which
    includes an analysis of the gap between human capital as it currently exists within the IRS
    and human capital as it is desired in the future.
•   A private vendor prepared a March 2006 Workforce Plan that compared the IRS workforce at
    that time to the projected workforce in 5 years based on factors such as retirement, attrition,
    and hiring trends (including migrations between IRS business units). The factors considered
    in this analysis were consistent with Federal Government best practices. In addition,
    beginning in October 2007, monthly reports that provide an overview of human capital
    trends–such as the number of employees eligible for retirement in mission critical
    occupations–were created for senior executives. However, neither this report nor quarterly
    operational reviews provide the same level of detail that is included for projections in the
    Workforce Plan.
•   Representatives from each business unit and the HCO formed a Human Capital Advisory
    Council and a Workforce Planning Sub-Council to study, analyze, and forecast human capital
    needs. The Councils were established to identify human capital requirements necessary to
    meet IRS objectives, including the skills needed to accomplish organizational goals, the
                                                                                            Page 4
                     A More Strategic and Consistent Approach to Estimating
                     Retirements and Other Separations Is Needed to Better
                             Plan for Future Human Resource Needs



    number of staff that will be needed, the location of needed staff, and when staffing shortfalls
    at specific locations can be expected.
•   As we were completing our review, the IRS stated that it plans to begin conducting exit
    surveys with employees leaving the IRS. The surveys were still in the development phase as
    of April 2008 but will be used to gather information necessary to better project future
    separations.

The IRS needs additional guidance, better communication, and more interactive
analysis when planning for future human resource needs
Implementing a strategic approach to workforce planning would ensure that key competencies
expected to be lost through separations are appropriately planned for to provide better assurance
that the IRS’ mission will be accomplished. The IRS can improve the processes it has put in
place to make more consistent and accurate projections of future human resource needs by
improving guidance, establishing better communication between the HCO and the IRS business
units/functional offices, and using all available tools for estimating separations. If accurate
projections are not made, the IRS might struggle to fill unforeseen vacancies, which could affect
overall service to taxpayers.
The HCO is a relatively new organization within the IRS. It has spent the last several years
establishing and setting up a new organizational structure, as well as determining how to
integrate its roles with those of well-established IRS business units and functional offices.
However, developing reliable longer term projections will be difficult because guidelines in the
Internal Revenue Manual and other procedural documents are outdated and do not reflect the
current HCO roles and responsibilities for projecting separations.
As a result, the HCO and the business units/functional offices have been unable to fully
implement a strategic approach to workforce planning because corporate processes for creating
and monitoring separation projections do not exist. Specifically:
•   IRS business units and functional offices used their own methods to create and monitor
    separation projections.
•   The agency-wide process for improving the accuracy of separation projections is out of date.
•   Measures have not been created to assess the accuracy of separation estimates.
•   Changes in hiring that could affect future projections are not always being communicated.
IRS business units and functional offices used their own methods to create and monitor
separation projections
While the HCO has obtained detailed workforce demographics and projections of future human
resource needs, the IRS business units and functional offices continued to use varying processes
to project separations. For example, interviews of IRS officials from selected business units and
                                                                                             Page 5
                         A More Strategic and Consistent Approach to Estimating
                         Retirements and Other Separations Is Needed to Better
                                 Plan for Future Human Resource Needs



functional offices indicated that they had developed a range of internal processes to estimate
separations because data from the HCO Workforce Plan were old and of limited value. The
March 2006 Workforce Plan contains detailed separation data. However, as of April 2008, the
information in the Plan had not been updated since the Plan was issued.
The processes used by the business units and functional offices to estimate separations were not
always consistent, which precluded the IRS from doing any type of agency-wide comparative
analysis to identify trends. In most instances, business units/functional offices worked to varying
degrees with their Finance office staffs and/or other components within their operations to
estimate the numbers of separations, which were usually based on historical trends. In addition,
projections were usually made only for the following fiscal year and were primarily motivated by
the need to obtain approval for the following year’s budget to hire additional resources. Business
units and functional offices also used different methods to monitor retirements and staffing. The
majority of the business units and functional offices we interviewed used the PeopleTrak6 system
for this purpose, while the others used internally developed methods.
The unique, short-range processes used by the business units and functional offices do not allow
managers and other decision makers to make strategic decisions. Because a significant number
of employees with key skills and competencies in different locations, occupations, and grade
levels could leave the IRS, longer term separation projections must be developed. These longer
term projections could be used to develop strategies for replacing the loss of institutional
memory with the skills and competencies needed for the future.
The agency-wide process for improving the accuracy of separation projections is out-of-
date
Internal Revenue Manual sections related to IRS workforce planning have not been updated
since July 2003, which is prior to establishment of the HCO. Contained within this outdated
guidance is a requirement for an annual analysis of the workforce planning process, a good
concept that we believe should be followed in the current IRS environment. However, this
analysis is currently not being performed due to staffing issues within the HCO. In addition,
Support Agreements7 between the HCO and the IRS business units do not address processes for
creating, refining, and using separation projections.




6
  The PeopleTrak system is a centralized, web-based application originally devised to 1) monitor hiring plans and
workforce initiatives by organization, location, and position, and 2) map all mission critical occupation hiring data
into an agency-wide position management system. The system tracks internal and external mission critical
occupation hires and has a robust reporting tool for providing real-time information to the HCO, IRS management,
and support organizations.
7
  Support Agreements provide information about service delivery tasks that the HCO has agreed to provide to
customers, delineates HCO and customer commitments regarding those tasks, and defines how the HCO’s
performance of its commitments will be measured.
                                                                                                              Page 6
                          A More Strategic and Consistent Approach to Estimating
                          Retirements and Other Separations Is Needed to Better
                                  Plan for Future Human Resource Needs



For example, the Human Capital Advisory Council and its related Workforce Planning
Sub-Council provide a means for discussing workforce planning issues, yet there is no record of
any meaningful feedback being provided to the HCO division responsible for making
projections.
In addition, detailed analyses were not performed to identify significant differences between
actual separations and separations projected in the Workforce Plan. We conducted this analysis
and identified some useful results. For example, as shown in Figure 2, our analysis of
Fiscal Year 2007 data showed that the number of customer service representatives8 who left the
IRS was substantially more than expected. The IRS Workforce Plan projected that
1,170 customer service representatives would leave the IRS during Fiscal Year 2007, while the
actual number was 1,732, a difference of 562 (48 percent). Conversely, the number of Office of
Appeals staff projected to leave the IRS was 242, while the actual number was 141. Thus, the
Office of Appeals did not need to replace 101 (42 percent) employees who were projected to
leave the IRS. Figure 2 shows that some separation projections for individual IRS occupations
have been relatively accurate, while others have not.




8
    Customer service representatives provide assistance to individuals and businesses through telephone contact.




                                                                                                              Page 7
                        A More Strategic and Consistent Approach to Estimating
                        Retirements and Other Separations Is Needed to Better
                                Plan for Future Human Resource Needs



    Figure 2: Estimated Number of Employees Expected to Leave the IRS Compared
                          to the Number Who Actually Left
                                                      Number of       Number of
                                                      Employees       Employees
                                                      Expected           Who
    Fiscal                                             to Leave        Actually                      Percentage
    Year             IRS Occupations                    the IRS          Left         Difference     Difference
    2006     All IRS Occupations                         10,586         11,045           459             4%
             Select Mission Critical
             Occupations9
              Revenue Agent10                            838              866              28             3%
              Revenue Officer11                          474              414             -60            -13%
              Customer Service Representative           1,202            1,423            221             18%
              Office of Appeals Staff                    207              134             -73            -35%
    2007     All IRS Occupations                        10,893           13,147          2,254            21%
             Select Mission Critical
             Occupations
              Revenue Agent                               936             930               -6            -1%
              Revenue Officer                             531             508              -23            -4%
              Customer Service Representative            1,170           1,732             562            48%
              Appeals Staff                               242             141             -101           -42%
Source: IRS HCO Workforce Plan dated March 2006 and queries of the Agency-Wide Shared Services organization
IRS Human Resources Reporting Center web site. We did not verify the accuracy of these data because their
accuracy did not affect the accomplishment of our audit objective.

While we understand that estimates will never be exact, a process to review past inaccuracies and
make adjustments could improve future projections and provide more meaningful workforce
planning analyses.
Measures have not been created to assess the accuracy of separation estimates
Existing measures do not assess the accuracy of separation projections. Through
Fiscal Year 2007, the HCO communicated staffing information to the business units and
functional offices via statistics included in quarterly Business Performance Reviews. This
information was generally presented in the form of nationwide staffing statistics and percentages.
In October 2007, the HCO initiated a report that includes 3 years of statistics for separations and



9
  We selected these four mission critical occupations because they were the focus of the March 2006 Workforce
Plan.
10
   Revenue agents examine and audit the financial records of corporate and individual taxpayers, helping to ensure
that these taxpayers pay the appropriate taxes and comply with Federal laws.
11
   Revenue officers are responsible for collecting delinquent taxes.
                                                                                                            Page 8
                        A More Strategic and Consistent Approach to Estimating
                        Retirements and Other Separations Is Needed to Better
                                Plan for Future Human Resource Needs



hiring activity, as well as a comparison of the total number of employees in mission critical
positions.
While this report provides good statistical information (including the total number of existing
staff for key positions), the data are limited to nationwide totals for separations for mission
critical positions and do not provide a means for measuring the accuracy of separation estimates
provided by the business units and functional offices. As such, the IRS does not know at a given
point in time the number of vacancies that will become available in a specific location. In
addition, there is no comparison between estimated and actual separations that enables the IRS to
measure the accuracy of the estimates to provide a means for improving future projections.
Measures are also needed to track the migration of employees from one business unit to another.
The Workforce Plan indicates that this migration makes it difficult for the IRS to forecast its
hiring requirements and suggests that migrations be tracked and analyzed regularly to address
transfers between the business units and functional offices.
Changes in hiring that could affect future projections are not always being communicated
Several business units and functional offices entered their Annual Hiring Plan12 information into
the PeopleTrak system, believing that this provided a means of communicating changes to the
HCO. However, the HCO does not use the PeopleTrak system for this purpose. Staff from the
HCO advised us that the IRS has not decided whether the PeopleTrak or another system will be
the final one used for workforce tracking because there is no consensus among the business
units/functional offices about using the PeopleTrak system as the standard to monitor and track
resources. Further, the HCO does not have authority to mandate how the business
units/functional offices provide resource information.
Ideally, the IRS should have a resource tracking system that provides a means of monitoring the
status of mission critical positions at both the national and local levels. This would provide a
means for senior IRS management to recognize whether there are any mission critical positions
(or geographical areas) for which there are impending staffing shortages. While the Business
Performance Review process and a newly instituted report provide staffing information, the data
include nationwide totals and are insufficient for detailed tracking of workforce trends for
specific occupations or locations.
Management Actions: After we informed IRS HCO officials about our initial results, the HCO
provided a draft version of a document entitled IRS Corporate Workforce Planning Framework
Design, with segments completed in November 2007 and February 2008. The Framework was



12
  The Annual Hiring Plan defines expected hiring for full-time equivalent positions at the division and agency
levels. A full-time equivalent is a measure of labor hours in which 1 full-time equivalent is equal to 8 hours
multiplied by the number of compensable days in a particular fiscal year. For Fiscal Year 2007, 1 full-time
equivalent was equal to 2,080 staff hours. For Fiscal Year 2008, 1 full-time equivalent is equal to 2,096 staff hours.
                                                                                                              Page 9
                    A More Strategic and Consistent Approach to Estimating
                    Retirements and Other Separations Is Needed to Better
                            Plan for Future Human Resource Needs



created because the HCO had identified a need to improve the IRS’ corporate workforce
planning capabilities, which include making separation projections.
Within the Framework, the HCO lists many of the same concerns identified during our audit.
For example, the HCO determined that:
•   Workforce planning challenges include duplication of research and analysis, inconsistent
    analysis methods, and lack of information-sharing across organizations.
•   Current workforce planning processes should be defined and documented.
•   The workforce planning Internal Revenue Manual needs to be updated.
•   Multi-year workforce planning efforts need to be aligned with annual budget-driven efforts.
•   Workforce planning processes should be monitored and assessed to determine the success of
    implementing workforce strategies based on these processes.
•   Workforce planning data standards, migration reports, and additional forecasting templates
    might be needed.
While we agree with many of the findings and recommendations in the draft Framework, we
believe that the key to successfully implementing a corporate workforce planning framework
will be the ability of the HCO and the business units/functional offices to reach consensus on
implementing the concepts included in the proposed planning Framework.

Recommendation
Recommendation 1: As part of any planned improvements to the workforce planning
process, the Deputy Commissioner for Operations Support and the Deputy Commissioner for
Services and Enforcement should establish a more collaborative, integrative process to
implement agency-wide roles and responsibilities for effectively creating, refining, and using
separation projections. In determining HCO and business unit/functional office roles and
responsibilities, the Deputy Commissioners should:
    •   Revise Internal Revenue Manual guidance and Support Agreements–as well as develop
        agency-wide templates and/or formats–for more consistency regarding separation
        projections.
    •   Ensure that adequate analyses are performed and measures are developed to identify
        differences between actual and projected separations and actual and projected migrations
        of employees from one business unit to another and use existing mechanisms
        (e.g., Workforce Planning Councils, Business Performance Reviews) to ensure that
        feedback is provided to improve future projections.


                                                                                          Page 10
                A More Strategic and Consistent Approach to Estimating
                Retirements and Other Separations Is Needed to Better
                        Plan for Future Human Resource Needs



•   Develop a consistent method (e.g., a system or process) to communicate hiring changes
    that could affect future projections.
    Management’s Response: IRS officials agreed with our recommendation. The
    IRS Human Capital Officer plans to partner with the Human Capital community and the
    Office of Program Evaluation Review and Analysis to revise Internal Revenue Manual
    guidance, existing Support Agreements, and the roles and responsibilities of the various
    partners (and their workforce planning processes and procedures where necessary) to
    ensure more consistency regarding separation projections. The IRS Human Capital
    Officer also plans to work with representatives of each IRS business unit to develop a
    comprehensive, agency-wide workforce planning process (including appropriate
    measures) to better enable the IRS to analyze its collective workforce needs and make
    accurate separation projections (including migrations between the business units).




                                                                                     Page 11
                         A More Strategic and Consistent Approach to Estimating
                         Retirements and Other Separations Is Needed to Better
                                 Plan for Future Human Resource Needs



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS is effectively projecting its
future human resource needs. To accomplish this objective, we:
I.       Determined whether the HCO had developed and followed effective procedures to
         analyze the IRS workforce and make accurate separation1 projections, including
         migrations between the business units.
         A. Determined whether the HCO had developed and followed effective procedures to
            analyze the current IRS workforce by reviewing selected procedures outlined in the
            Internal Revenue Manual and interviewing IRS representatives involved in the
            process of projecting separations. Specifically, we determined whether:
             1. Workforce planning roles, responsibilities, and other program requirements were
                outlined in procedures.
             2. Trends in various types of separations were analyzed between business
                units/functional offices. When so, we determined whether the analysis was
                performed regularly.
         B. Determined whether the HCO had developed and followed effective procedures to
            make accurate separation projections by reviewing selected procedures outlined in the
            Internal Revenue Manual and interviewing IRS representatives involved in the
            process of projecting separations. Specifically, we determined whether:
             1. Anticipated staffing changes were reviewed and incorporated into the
                HCO Workforce Plan when making separation projections.
             2. HCO measures were developed to assess the accuracy of separation projections.
             3. The HCO analyzed separation estimates each fiscal year and, if estimates were
                substantially different from actual separations, assessed actions taken as a result
                of inaccurate estimates.
             4. The HCO obtained feedback from the individual business units/functional offices
                regarding concerns with the separation projections or any of the processes
                associated with estimating the projections.


1
  Retirements, migrations between business units/functional offices, and other forms of attrition are collectively
referred to as separations.
                                                                                                             Page 12
                       A More Strategic and Consistent Approach to Estimating
                       Retirements and Other Separations Is Needed to Better
                               Plan for Future Human Resource Needs



             5. The IRS had a corporate strategy for managing and measuring the extent of staff
                migrations between business units.
II.     Determined whether the HCO was providing adequate support to the business
        units/functional offices to ensure that separation projections are useful. Specifically, we
        determined whether:
        A. Support Agreements2 had been established with each business unit and whether the
           Agreements establish expectations for estimating the number of employees who will
           potentially leave the IRS.
        B. Agency-wide templates and/or processes were developed for business units/functional
           offices to follow when conducting their own staffing analyses.
        C. Business units/functional offices were using information provided by the HCO to
           make staffing decisions.
        D. Any feedback was received by the HCO from the business units/functional offices
           regarding the accuracy of separation projections and/or associated processes.
        E. An annual analysis of the workload planning process was performed as required in
           the Internal Revenue Manual and whether any input was received regarding the
           accuracy of separation projections or associated processes.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: procedures for analyzing the
IRS workforce, making accurate projections, and coordinating workforce planning activities
between the HCO and the business units/functional offices. We evaluated these controls by
interviewing management and reviewing applicable information.




2
 Support Agreements provide information about service delivery tasks that the HCO has agreed to provide to
customers, delineates HCO and customer commitments regarding those tasks, and defines how the HCO’s
performance of its commitments will be measured.
                                                                                                       Page 13
                   A More Strategic and Consistent Approach to Estimating
                   Retirements and Other Separations Is Needed to Better
                           Plan for Future Human Resource Needs



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Steve T. Myers, Lead Auditor
Andrew J. Burns, Senior Auditor
Carol A. Rowland, Auditor




                                                                                    Page 14
                  A More Strategic and Consistent Approach to Estimating
                  Retirements and Other Separations Is Needed to Better
                          Plan for Future Human Resource Needs



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation SE:CI
Chief Information Officer OS:CIO
IRS Chief Human Capital Officer OS:HC
Director, Planning and Measures (IRS Human Capital Office) OS:HC:M
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Large and Mid-Size Business Division SE:LM
   Commissioner, Small Business/Self-Employed Division SE:S
   Chief, Criminal Investigation SE:CI
   Chief Information Officer OS:CIO
   IRS Chief Human Capital Officer OS:HC
   Director, Communications and Liaison, Tax Exempt and Government Entities
   Division SE:T:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 15
      A More Strategic and Consistent Approach to Estimating
      Retirements and Other Separations Is Needed to Better
              Plan for Future Human Resource Needs



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 16
A More Strategic and Consistent Approach to Estimating
Retirements and Other Separations Is Needed to Better
        Plan for Future Human Resource Needs




                                                    Page 17
